No.

IN THE SUPREME COURT OF THE UNITED STATES

FORREST COX, Petitioner,
vs.

STATE OF NEBRASKA, Respondent.

PROOF OF SERVICE

I, Thomas C. Riley declare that on this date, February 10, 2021, and as
required by Supreme Court Rule 29, we have served the enclosed MOTION FOR
LEAVE TO PROCEED IN FORMA PAUPERIS and PETITION FOR WRIT OF
CERTIORARI on each party to the above proceeding or that party's counsel, and on
every other person required to be served, by depositing an envelope containing the
above documents in the United States mail properly addressed to each of them and
with first class postage prepaid, or by delivery to a third party commercial carrier for
delivery within three calendar days.
The names and addresses of those served are as follows:

Nebraska Attorney General, 2115 State Capitol. Lincoln, NE 68509
We declare under penalty of perjury that the foregoing is true and correct.
Executed on February 10, 2021.

^^y^o (_ '
Thomas C. Riley, #135^3
Douglas County Public Defender

